UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




            Audit of the NLRB
   Fiscal Year 2006 Financial Statements


                   Report No. OIG-F-11-07-01




                                               December 2006
INSPECTOR GENERAL




       NATIONAL LABOR RELATIONS BOARD
                         WASHINGTON, DC 20570

December 14, 2006

I hereby submit the Audit of the National Labor Relations Board's (NLRB) Fiscal
Year (FY) 2006 Financial Statements, Report No. OIG-F-11-07-01. The audit
was required by the Accountability of Tax Dollars Act of 2002. On November 9,
2006, we transmitted Carmichael, Brasher, Tuvell & Company’s (CBTC) audit
opinion, which was included in the Agency's FY 2006 Performance and
Accountability Report. This document is the Office of Inspector General's
comprehensive report on our efforts related to auditing the Agency's financial
statements and includes the audit report, management letter, NLRB's financial
statements and related notes, and management's responses to both the audit
report and management letter.

The Accountability of Tax Dollars Act of 2002 requires NLRB to prepare and
submit to the Congress and the Director of the Office of Management and
Budget (OMB) an audited financial statement. We contracted with CBTC to
perform the audit. The objectives of the audit were to issue an opinion on the
fairness of the financial statements, obtain an understanding of the Agency's
internal controls, and test compliance with laws and regulations that could
have a direct and material effect on the financial statements.

The audit was conducted by CBTC in accordance with Government Auditing
Standards issued by the Comptroller General of the United States and OMB
Bulletin No. 06-03, Audit Requirements for Federal Financial Statements. The
audit results were:

   •   The financial statements present fairly, in all material respects, the
       financial condition and activity of the NLRB as of and for the years
       ending September 30, 2005 and 2006.

   •   No material weaknesses in controls over financial reporting were
       identified.
                                  TABLE OF CONTENTS


Independent Auditor's Report ................................................................1

Management Letter ................................................................................6

NLRB Financial Statements ..................................................................11

Notes to Principal Statements ...............................................................16

APPENDIXES

    A. Memorandum from the Director of Administration, Response to
       Draft Audit Report – NLRB Fiscal Year 2006 Financial Statements,
       dated November 2, 2006

    B. Memorandum from the Director of Administration, Comments on
       Draft Management Letter on Audit of NLRB's FY 2006 Financial
       Statements, dated December 8, 2006
1
2
3
4
5
6
7
8
9
10
Auditors' Reports and Financial Statements

Principal Statements


                                National Labor Relations Board
                                              BALANCE SHEET
                                 As of September 30, 2006 (CY) and 2005 (PY)
                                                (in dollars)



                                                                                2006             2005
                                                                                *(CY)            *(PY)
Assets:
   Intragovernmental:
       Fund balance with Treasury (Note 2)                              $       24,541,644 $     25,649,530
       Investments, net (Note 3)                                                 1,668,341        1,652,216
       Accounts receivable (Note 5)                                                      0           37,313
       Advances (Note 4)                                                            64,460           20,848
   Total intragovernmental                                                      26,274,445       27,359,907
   Accounts receivable, Net (Note 5)                                                53,840           53,696
   Advances (Note 4)                                                                29,419           14,447
   General property, plant and equipment, net (Note 6 and 10)                      277,468          126,384
Total assets                                                            $       26,635,172 $     27,554,434

Liabilities:
   Intragovernmental:
       Accounts payable (Note 7)                                        $          375,612 $        723,580
       Employer contributions and payroll taxes                                  1,379,765        1,332,219
       FECA liability (Note 8 and 10)                                              920,487          921,357
       Custodial liability                                                               0               50
   Total Intragovernmental                                                       2,675,864        2,977,206
   Accounts payable (Note 7)                                                     3,730,917        4,522,069
   Estimated future FECA liability (Note 8 and 10)                               2,135,103        1,784,290
   Accrued payroll and benefits                                                  6,172,321        6,047,056
   Accrued annual leave (Note 8 and 10)                                         13,511,257       13,263,621
   Backpay settlement due to others (Note 8 and 9)                               2,532,232        3,079,936
   Custodial liability (Note 8 and 9)                                              253,671          549,313
   Total liabilities                                                            31,011,365       32,223,491

Net position:
   Unexpended appropriations                                                     11,859,347       11,120,013
   Cumulative results of operations (Note 10)                                  (16,235,540)     (15,789,070)
   Total net position                                                   $       (4,376,193) $    (4,669,057)
Total liabilities and net position                                      $        26,635,172 $     27,554,434

*CY=Current Year, PY= Prior Year


                 The accompanying notes are an integral part of these statements.

                                                     11
                                 National Labor Relations Board
                                         STATEMENT OF NET COST
                        For the Years Ended September 30, 2006 (CY) and 2005 (PY)
                                                (in dollars)



                                                                 2006                  2005
                                                                 (CY)                  (PY)
Program Costs:

Resolve representation cases
Total Gross Cost (Note 11)                                 $       43,171,033     $         38,440,183

Resolve unfair labor practices
Total Gross Cost (Note 11)                                        221,885,443              223,916,422



Other
Gross Costs                                                             266,891               112,556
Less: Earned Revenue                                                    266,891               122,556
Total Gross Cost                                                              -                      -


Net Cost of Operations (Note 11)                       $          265,056,476     $        262,356,605




              The accompanying notes are an integral part of these financial statements.




                                                  12
                                 National Labor Relations Board
                                     STATEMENT OF CHANGES IN NET POSITION
                           For the Years Ended September 30, 2006 (CY) and 2005 (PY)
                                                  (in dollars)



                                                          Consolidated Total           Consolidated Total
                                                                  2006                       2005
                                                                  (CY)                        (CY)


Cumulative Results of Operations:
  Beginning Balances                                                 (15,789,070)                (15,210,451)


Budgetary Financing Sources:
  Appropriations - used                                              247,717,037                 245,515,820


Other Financing Sources (Non-Exchange):
  Imputed financing costs (Note 15)                                      16,892,969                  16,262,166
 Total Financing Sources                                             264,610,006                 261,777,986
 Net Cost of Operations                                             (265,056,476)              (262,356,605)
 Net Change                                                               (446,470)                   (578,619)


 Cumulative Results of Operations (Note 10)                          (16,235,540)                (15,789,070)


Unexpended Appropriations:
  Beginning Balance                                                      11,120,013                   7,979,219


Budgetary Financing Sources:
  Appropriations received                                            252,268,000                 251,875,000
 Appropriations - used:                                             (247,717,037)              (245,515,820)
 Recissions & cancelled appropriations                                   (3,811,629)                 (3,218,386)
Total Budgetary Financing Sources                                           739,334                   3,140,794
Total Unexpended Appropriations                                          11,859,347                  11,120,013


Net Position                                                             (4,376,193)                 (4,669,057)




               The accompanying notes are an integral part of these financial statements.

                                                     13
                               National Labor Relations Board
                                   STATEMENT OF BUDGETARY RESOURCES
                        For the Years Ended September 30, 2006 (CY) and 2005 (PY)
                                               (in dollars)

                                                                     2006                2005
                                                                     (CY)                (PY)
Budgetary Resources:
  Unobligated balance, brought forward, October 1:                      4,903,727           4,841,158
  Recoveries of prior year unpaid obligations                           1,643,869           1,219,779
  Budget authority:
   Appropriations (Note 13)                                           252,268,000         251,875,000
  Spending authority from offsetting collections:
   Earned
     Collected                                                             372,551             191,943
     Receivable from Federal sources                                      (37,157)              37,157
  Subtotal                                                            252,603,394         252,104,100
  Permanently not available (Note 13)                                  (3,811,629)         (3,218,386)
  Total Budgetary Resources (Note 14)                       $         255,339,361 $       254,946,651

Status of Budgetary Resources:
  Obligations incurred:
    Direct                                                  $         250,043,526 $       249,930,369
    Reimbursable                                                          266,891             112,556
  Subtotal (Note 14)                                                  250,310,417         250,042,925
  Unobligated balance:
    Apportioned (Note 14)                                                 420,908             455,357
    Exempt from apportionment                                                   0              10,124
    Unobligated balance not available                                   4,608,036           4,438,245
  Total Status of Budgetary Resources                       $         255,339,361 $       254,946,651

Change in Obligated Balance:
  Obligated balance, net,                                    $                       $
   Unpaid obligations, brought forward, October 1                      18,805,914          15,793,463
   Uncollected customer payments from Federal
           Sources, brought forward, October 1                            (37,157)                    -
   Total unpaid obligated balance, net:                                18,768,757           15,793,463
  Obligations incurred, net                                           250,310,417          250,042,924
  Gross Outlays                                                     (249,077,325)        (245,810,694)
  Recoveries of prior year unpaid obligations, actual                  (1,643,869)          (1,219,779)
Change in uncollected customer payments from federal sources                37,157             (37,157)
  Obligated balance, net, end of period:
  Unpaid obligations                                                   18,395,138          18,805,914
  Net Outlays:
   Gross outlays                                                      249,077,325         245,810,694
   Offsetting collections                                               (372,551)           (191,943)
  Net Outlays                                                $        248,704,774 $       245,618,751

              The accompanying notes are an integral part of these financial statements.

                                                      14
                                National Labor Relations Board
                                          STATEMENT OF FINANCING
                         For the Years Ended September 30, 2006 (CY) and 2005 (PY)
                                                (in dollars)



                                                                                       2006          2005
                                                                                       (CY)          (PY)
Resources Used to Finance Activities:

Budgetary Resources Obligated:
 Obligations incurred                                                             $ 250,310,417 $ 250,042,925
 Less: Spending authority from offsetting collections/adjustments                     1,979,263     1,448,879
 Net obligations                                                                    248,331,154   248,594,046

Other Resources:
 Imputed financing from costs absorbed by others (Note 15)                          16,892,969     16,262,166
 Net other resources used to finance activities                                     16,892,969     16,262,166
  Total resources used to finance activities                                       265,224,123    264,856,212

Resources Used to Finance Items Not Part of the Net Cost of Operations

  Change in budgetary resources obligated for goods, services, and benefits
   ordered but not yet provided (+/-)                                                 (614,117)   (3,078,225)
  Resources that finance the acquisition of assets                                    (232,297)     (118,870)
   Total resources used to finance items not part of the net cost of operations       (846,414)   (3,197,095)

   Total resources used to finance the net cost of operations                      264,377,709    261,659,117

Components of Net Cost of Operations that will not Require or
Generate Resources in the Current Period

Components Requiring or Generating Resources in Future Periods:
 Increase in annual leave liability                                                    247,635        838,314
 Increase in Exchange Revenue Receivable From the Public                                   (25)      (10,797)
 Other (+/-) (Note 8 and 10)                                                           349,943      (200,033)
   Total components of Net Cost of Operations that will require or
   generate resources in future periods                                                597,553       627,484

Components not Requiring or Generating Resources:

  Depreciation and amortization (Note 6)                                                81,214        70,004
   Total components of Net Cost of Operations that will not require or generate
   resources                                                                            81,214        70,004
   Total components of net cost of operations that will not require or generate
   resources in the current period                                                     678,767       697,488


   Net Cost of Operations                                                         $ 265,056,476 $ 262,356,605

              The accompanying notes are an integral part of these financial statements.


                                                        15
Notes to Principal Statements
Note 1. Summary of Significant Accounting Policies

A. Reporting Entity
The National Labor Relations Board (NLRB) is an independent Federal agency
established in 1935 to administer the National Labor Relations Act (NLRA). The NLRA
is the principal labor relations law of the United States, and its provisions generally apply
to private sector enterprises engaged in, or to activities affecting, interstate commerce.
NLRB’s jurisdiction includes the U.S. Postal Service (other government entities,
railroads, and airlines are not within NLRB’s jurisdiction). The NLRB seeks to serve the
public interest by reducing interruptions in commerce caused by industrial strife. It does
this by providing orderly processes for protecting and implementing the respective rights
of employees, employers, and unions in their relations with one another. The NLRB has
two principal functions: (1) to determine and implement, through secret ballot elections,
free democratic choice by employees as to whether they wish to be represented by a
union in dealing with their employers and, if so, by which union; and (2) to prevent and
remedy unlawful acts, called unfair labor practices (ULP), by either employers, unions, or
both. The NLRB’s authority is divided both by law and delegation. The five-member
Board (Board) primarily acts as a quasi-judicial body in deciding cases on formal records.
The General Counsel investigates and prosecutes ULP before administrative law judges,
whose decisions may be appealed to the Board; and, on behalf of the Board, conducts
secret ballot elections to determine whether employees wish to be represented by a union.

B. Basis of Accounting and Presentation
These financial statements have been prepared to report the financial position, net cost,
changes in net position, budgetary resources and reconciliation of net cost to budgetary
obligations of the NLRB as required by the Accountability of Tax Dollars Act of 2002.
These financial statements have been prepared from the books and records of NLRB in
accordance with accounting principles generally accepted in the United States of America
(GAAP), and the form and content requirements of the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements. GAAP for
Federal entities are the standards prescribed by the Federal Accounting Standards
Advisory Board (FASAB), which is the official standard-setting body for the Federal
government. While the statements have been prepared from the books and records of
NLRB in accordance with United States GAAP for Federal entities and the formats
prescribed by OMB, the statements are in addition to the financial reports used to monitor
and control budgetary resources which are prepared from the same books and records.
These financial statements present proprietary and budgetary information.

The fiscal year (FY) 2008 Budget of the United States (also known as the President’s
Budget) with actual numbers for FY 2006 was not published at the time that these
financial statements were issued. The President’s Budget is expected to be published in
February 2007 and will be available from the United States Government Printing Office.
There are no differences in the actual amounts for FY 2005 that have been reported in the
FY 2007 Budget of the United States and the actual numbers that appear in the FY 2005
Statement of Budgetary Resources.




                                            16
OMB financial statement reporting guidelines for FY 2006 require the presentation of
comparative financial statements for all of the principal financial statements. NLRB is
presenting comparative FY 2006 financial statements for the Balance Sheet, Statement of
Net Cost, Statement of Changes in Net Position, Statement of Budgetary Resources, and
Statement of Financing and these statements have been prepared in accordance with
generally accepted accounting principles.

The financial statements should be read with the realization that they are for a component
of the United States Government, a sovereign entity. One implication of this is that
liabilities cannot be liquidated without legislation that provides resources and legal
authority.

The accounting structure of Federal agencies is designed to reflect both accrual and
budgetary accounting transactions. Under the accrual method of accounting, revenues
are recognized when earned, and expenses are recognized when a liability is incurred,
without regard to receipt or payment of cash.

The budgetary accounting principles, on the other hand, are designed to recognize the
obligation of funds according to legal requirements, which in many cases is prior to the
occurrence of an accrual based transaction. The recognition of budgetary accounting
transactions is essential for compliance with legal constraints and controls over the use of
Federal funds.

The information as presented on the Statement of Net Cost is based on the programs
below:

        Representation Cases are initiated by the filing of a petition—by an employee, a
        group of employees, an individual or labor organization acting on their behalf, or
        in some cases by an employer. The petitioner requests an election to determine
        whether a union represents, or in some cases continues to represent, a majority of
        the employees in an appropriate bargaining unit and therefore should be certified
        as the employees’ bargaining representative. The role of the Agency is to
        investigate the petition and, if necessary, conduct a hearing to determine whether
        the employees constitute an appropriate bargaining unit under the NLRA. The
        NLRB must also determine which employees are properly included in the
        bargaining unit, conduct the election if an election is determined to be warranted,
        hear and decide any post-election objections to the conduct of the election and, if
        the election is determined to have been fairly conducted, to certify its results.

        ULP Cases are initiated by individuals or organizations through the filing of a
        charge with the NLRB. If the NLRB Regional Office believes that a charge has
        merit, it issues and prosecutes a complaint against the charged party, unless
        settlement is reached. A complaint that is not settled or withdrawn is tried before
        an administrative law judge (ALJ), who issues a decision, which may beappealed
        by any party to the Board. The Board acts in such matters as a quasi-judicial




                                            17
        body, deciding cases on the basis of the formal trial record according to the law
        and the body of case law that has been developed by the Board and the Federal
        courts.

C. Budgets and Budgetary Accounting
Congress annually adopts a budget appropriation that provides the NLRB with authority
to use funds from Treasury to meet operating expense requirements. NLRB has single
year budgetary authority and all unobligated amounts at year-end are expired. At end of
the fifth year all amounts not expended are canceled. All revenue received from other
sources must be returned to the Treasury.

Budgetary accounting measures appropriation and consumption of budget/spending
authority or other budgetary resources and facilitates compliance with legal constraints
and controls over the use of Federal funds. Under budgetary reporting principles,
budgetary resources are consumed at the time of purchase. Assets and liabilities, which
do not consume current budgetary resources, are not reported, and only those liabilities
for which valid obligations have been established are considered to consume budgetary
resources.

Transactions are recorded on an accrual accounting basis. Under the accrual method,
revenues are recognized when earned and expenses are recognized when a liability is
incurred, without regard to receipt or payment of cash.

D. Financing Sources
NLRB received funds to support its programs through annual appropriations. These may
be used to pay program and administrative expenses (primarily salaries and benefits,
occupancy, travel, and contractual service costs).

For accounting purposes, appropriations are recognized as financing sources
(appropriations used) at the time expenses are accrued. Appropriations expended for
general property, plant and equipment are recognized as expenses when the asset is
consumed in operations (depreciation and amortization).

E. Fund with the U.S. Treasury
The NLRB does not maintain cash in commercial bank accounts. Cash receipts and
disbursements are processed by the U.S. Treasury (Treasury). The fund balances with the
Treasury are primarily appropriated funds that are available to pay current liabilities and
to finance authorized purchases. Funds with the Treasury represent NLRB’s right to
draw on the Treasury for allowable expenditures. In addition, funds held with the
Treasury also include escrow funds that are not appropriated but are Backpay funds that
are the standard Board remedy whenever a violation of the NLRA has resulted in a loss
of employment or earnings.

See Note 2 for additional information on Fund Balance with Treasury.




                                           18
F. Investments, Net
NLRB invests funds in Federal government securities for Backpay that are held in the
escrow account at Treasury. These funds held in Treasury are not appropriated funds.
Backpay is the standard Board remedy whenever a violation of the NLRA has resulted in
a loss of employment or earnings.

The Federal government securities include marketable Treasury market-based securities
issued by the Federal Investment Branch of the Bureau of the Public Debt. Market-based
securities are Treasury securities that are not traded on any securities exchange, but
mirror the prices of marketable securities with similar terms.
It is expected that Investments will be held until maturity; therefore they are valued at
cost and adjusted for amortization of discounts, if applicable. The discounts are
recognized as adjustments to interest income, utilizing the straight-line method of
amortization for short-term securities (i.e., bills).

The market value is estimated as the sales price of the security multiplied by the bid price
as of September 30, 2006 and September 30, 2005, respectively.

There exists a signed Memorandum of Understanding (MOU) between the NLRB and the
Treasury establishing the policies and procedures that the NLRB and the Treasury agree
to follow for investing monies in, and redeeming investments held by, the deposit fund
account in Treasury.

See Note 3 for additional information on Investments, Net.

G. Advances
Advances consist of amounts advanced by NLRB for the transit subsidy program, United
States Postal Service for penalty mail and for commercial payment system for postage.

See Note 4 for additional information on the Advances.

H. Accounts Receivable, Net of Allowance for Doubtful Accounts
Accounts Receivable primarily consists of health benefit premiums due the NLRB from
agency employees. Accounts receivable are stated net of allowance for doubtful
accounts. The allowance is estimated based on an aging of account balances, past
collection experience, and an analysis of outstanding accounts at year end.

See Note 5 for additional information on Accounts Receivable.
I. General Property, Plant and Equipment
General property, plant and equipment consist primarily of telephone systems, computer
hardware and software. The Agency has no real property.

General property, plant and equipment with a cost of $15,000 or more per unit is
capitalized at cost and depreciated using the straight-line method over the useful life.
Other property items are expensed when purchased. Expenditures for repairs and
maintenance are charged to operating expenses as incurred. The useful life for this




                                            19
category is five to twelve years. There are no restrictions on the use or convertibility of
general property, plant and equipment.

Internal Use Software. Internal use software includes purchased commercial off-the-shelf
software (COTS), contractor-developed software, and software that was internally
developed by Agency employees. Internal use software is capitalized at cost if the
acquisition cost is $100,000 or more. For COTS software, the capitalized costs include
the amount paid to the vendor for the software; for contractor-developed software it
includes the amount paid to a contractor to design, program, install, and implement the
software. Capitalized costs for internally developed software include the full cost (direct
and indirect) incurred during the software development stage. The estimated useful life is
two to five years for calculating amortization of software using the straight-line method.

See Note 6 for additional information on General Property, Plant and Equipment, Net.

J. Non-Entity Assets
Assets held by NLRB that are not available to NLRB for obligation are considered non-
entity assets. NLRB holds non-entity assets for Backpay.

See Note 8, 9 and 16 for additional information on Non-Entity Assets.

K. Liabilities
Liabilities represent the amount of monies or other resources that are likely to be paid by
NLRB as the result of a transaction or event that has already occurred. However, no
liability can be paid by NLRB absent an appropriation. Liabilities for which an
appropriation has not been enacted are therefore classified as Liabilities Not Covered by
Budgetary Resources and there is no certainty that the appropriation will be enacted.
Also, liabilities of NLRB arising from other than contracts can be abrogated by the
government, acting in its sovereign capacity.

L. Liabilities Not Covered by Budgetary Resources
Liabilities represent the amount of monies or other resources that are likely to be paid by
NLRB as the result of a transaction or event that has already occurred. Liabilities not
covered by budgetary resources result from the receipts of goods or services in the
current or prior periods, or the occurrence of eligible events in the current or prior periods
for which appropriations, revenues, or other financing sources of funds necessary to pay
the liabilities have not been made available through Congressional appropriations or
current earnings of the reporting entity.

Intragovernmental
The U.S. Department of Labor (DOL) paid Federal Employees Compensation Act
(FECA) benefits on behalf of NLRB which had not been billed or paid by NLRB as of
September 30, 2006 and 2005, respectively.




                                             20
Federal Employees Workers’ Compensation Program.
The FECA provides income and medical cost protection to covered Federal civilian
employees injured on the job, to employees who have incurred work-related occupational
diseases, and to beneficiaries of employees whose deaths are attributable to job-related
injuries or occupational diseases. The FECA program is administered by DOL, which
pays valid claims and subsequently seeks reimbursement from NLRB for these paid
claims.

The FECA liability consists of two components. The first component is based on actual
claims paid by DOL but not yet reimbursed by NLRB. NLRB reimburses DOL for the
amount of the actual claims as funds are appropriated for this purpose. There is generally
a two to three year lag between payment by DOL and reimbursement by NLRB. As a
result, NLRB recognizes a liability for the actual claims paid by DOL and to be
reimbursed by NLRB.

The second component is the estimated liability for future benefit payments as a result of
past events. This liability includes death, disability, medical, and miscellaneous costs.
NLRB determines this component annually, as of September 30, using a method that
considers historical benefit payment patterns.

The NLRB uses the methodology of reviewing the ages of the claimant on a case-to-case
basis (because of the small number of claimants) to evaluate the estimated FECA
liability. The determination was made to use the life expectancy of claimants of 80 and
84 years for male and female, respectively.

See Note 8 for additional information on the FECA liability.

Other
Accrued annual leave represents the amount of annual leave earned by NLRB employees
but not yet taken.

See Note 10 for additional information on Annual Leave.

M. Contingencies
Contingencies are recorded when losses are probable, and the cost is measurable. When
an estimate of contingent losses includes a range of possible costs, the most likely cost is
reported; where no cost is more likely than any other, the lowest possible cost in the
range is reported. This item will normally be paid from appropriated funds.

See Note 17 for additional information on Contingencies.

N. Unexpended Appropriations
Unexpended appropriations represent the amount of NLRB’s unexpended appropriated
spending authority as of the fiscal year-end that is unliquidated or is unobligated and has
not lapsed, been rescinded, or withdrawn.




                                            21
O. Annual, Sick, and Other Leave
Annual and Sick Leave Program.
Annual leave is accrued as it is earned by employees and is included in personnel
compensation and benefit costs. Each year, the balance in the accrued annual leave
liability account is adjusted to reflect current pay rates. Sick leave and other types of
nonvested leave are expensed as taken.

See Note 10 for additional information on Annual Leave.

P. Life Insurance and Retirement Plans
Federal Employees Group Life Insurance (FEGLI) Program.
Most NLRB employees are entitled to participate in the FEGLI Program. Participating
employees can obtain “basic life” term life insurance, with the employee paying two-
thirds of the cost and the NLRB paying one-third. Additional coverage is optional, to be
paid fully by the employee. The basic life coverage may be continued into retirement if
certain requirements are met. The Office of Personnel Management (OPM) administers
this program and is responsible for the reporting of liabilities. For each fiscal year, OPM
calculates the U.S. Government’s service cost for the post-retirement portion of the basic
life coverage. Because the NLRB’s contributions to the basic life coverage are fully
allocated by OPM to the pre-retirement portion of coverage, the NLRB has recognized
the entire service cost of the post-retirement portion of basic life coverage as an imputed
cost and imputed financing source.

Retirement Programs.
NLRB employees participate in one of two retirement programs, either the Civil Service
Retirement System (CSRS) or the Federal Employees Retirement System (FERS), which
became effective on January 1, 1987. Most NLRB employees hired after December 31,
1983, are automatically covered by FERS and Social Security. Employees hired prior to
January 1, 1984, could elect to either join FERS and Social Security or remain in CSRS.
Employees covered by CSRS are not subject to Social Security taxes, nor are they
entitled to accrue Social Security benefits for wages subject to CSRS.
For FERS employees, NLRB contributes an amount equal to one percent of the
employee’s basic pay to the tax deferred Thrift Savings Plan and matches employee
contributions up to an additional four percent of pay. The maximum percentage of base
pay that an employee participating in FERS may contribute is $15,000 in calendar year
(CY) 2006 to this plan. Employees belonging to CSRS may also contribute up to
$15,000 of their salary in CY 2006 and receive no matching contribution from NLRB.
The maximum amount that either FERS or CSRS employees may contribute to the plan is
$15,000 in CY 2006. The sum of the employees’ and NLRB’s contributions are
transferred to the Federal Retirement Thrift Investment Board.

The OPM is responsible for reporting assets, accumulated plan benefits, and unfunded
liabilities, if any, applicable to CSRS participants and FERS employees government-
wide, including NLRB employees. The NLRB has recognized an imputed cost and
imputed financing source for the difference between the estimated service cost and the
contributions made by the NLRB and covered CSRS employees.




                                             22
The NLRB does not report on its financial statements FERS and CSRS assets,
accumulated plan benefits, or unfunded liabilities, if any, applicable to its employees.
Reporting such amounts is the responsibility of OPM. The portion of the current and
estimated future outlays for CSRS not paid by NLRB is, in accordance with Statement of
Federal Financial Accounting Standards No. 5, Accounting for Liabilities of the Federal
Government, included in NLRB’s financial statements as an imputed financing source.

Liabilities for future pension payments and other future payments for retired employees
who participate in the Federal Employees Health Benefits and the FEGLI programs are
reported by OPM rather than NLRB.

SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires employing
agencies to recognize the cost of pensions and other retirement benefits during their
employees' active years of service. OPM actuaries determine pension cost factors by
calculating the value of pension benefits expected to be paid in the future, and provide
these factors to the agency for current period expense reporting. Information was also
provided by OPM regarding the full cost of health and life insurance benefits.

In FY 2006, NLRB, utilizing OPM provided cost factors, recognized $7,347,627 of
pension expenses, $9,516,780 of post-retirement health benefits expenses, and $28,562 of
post-retirement life insurance expenses, beyond amounts actually paid. NLRB recognized
offsetting revenue of $16,892,969 as an imputed financing source to the extent that these
intragovernmental expenses will be paid by OPM.

In FY 2005, NLRB, utilizing OPM provided cost factors, recognized $7,581,409 of
pension expenses, $8,652,569 of post-retirement health benefits expenses, and $28,188 of
post-retirement life insurance expenses, beyond amounts actually paid. NLRB recognized
offsetting revenue of $16,262,166 as an imputed financing source to the extent that these
intragovernmental expenses will be paid by OPM.

See Note 15 for additional information

Q. Operating Leases
The NLRB has no capital lease liability or capital leases. Operating leases consist of real
and personal property leases with the General Services Administration (GSA).
Regarding NLRB’s building lease, the GSA entered into a lease agreement for NLRB’s
rental of building space. NLRB pays GSA a standard level users charge for the annual
rental. The standard level users charge approximates the commercial rental rates for
similar properties. NLRB is not legally a party to any building lease agreements, so it
does not record GSA-owned properties. The real property leases are for NLRB’s
Headquarters and Regional Offices and the personal property leases are for GSA cars.

See Note 12 for additional information on Operating Leases.

R. Net Position
Net position is the residual difference between assets and liabilities and is composed of
unexpended appropriations and cumulative results of operations. Unexpended




                                            23
appropriations represent the amount of unobligated and unexpended budget authority.
Unobligated balances are the amount of appropriations or other authority remaining after
deducting the cumulative obligations from the amount available for obligation. The
cumulative results of operations are the net result of NLRB’s operations since inception.

S. Use of Management Estimates
The preparation of the accompanying financial statements in accordance with accounting
principles generally accepted in the United States of America requires management to
make certain estimates and assumptions that directly affect the results of reported assets,
liabilities, revenues, and expenses. Actual results could differ from these estimates.

T. Tax Status
NLRB, as an independent Board of the Executive Branch, a Federal agency, is not
subject to federal, state, or local income taxes, and, accordingly, no provision for income
tax is recorded.

Note 2. Fund Balance With Treasury
Treasury performs cash management activities for all Federal agencies. The net activity
represents Fund Balance with Treasury. The Fund Balance with Treasury represents the
right of the NLRB to draw down funds from Treasury for expenses and liabilities. Fund
Balance with Treasury by fund type as of September 30, 2006 and September 30, 2005
consists of the following:

Fund Balance with Treasury by Fund Type:



                                FY 2006        Non-                   FY 2005       Non-
                                 Entity       Entity                   Entity      Entity
 (Dollars in thousands)          Assets       Assets       Total      Assets       Assets     Total
 General Funds                   $23,678                  $23,678     $24,222             -   $24,222
                                                              864
 Escrow Funds                                     864                          -     1,428      1,428
 Total Fund Balance
 with Treasury                    $23,678        $864     $24,542      $24,222      $1,428    $25,650

The status of the fund balance may be classified as unobligated available, unobligated
unavailable, and obligated. Unobligated funds, depending on budget authority, are
generally available for new obligations in current operations. The unavailable balance
includes amounts appropriated in prior fiscal years, which are not available to fund new
obligations. The obligated but not yet disbursed balance represents amounts designated
for payment of goods and services ordered but not yet received or goods and services
received but for which payment has not yet been made.

Obligated and unobligated balances reported for the status of fund balance with Treasury
do not agree with obligated and unobligated balances reported on the Statement of




                                            24
Budgetary Resources because the Fund Balance with Treasury includes items for which
budgetary resources are not recorded, such as deposit funds and miscellaneous receipts.

Status of Fund Balance with Treasury as of September 30, 2006 and September 30, 2005
consists of the following:

Fund Balance with Treasury by Availability:



 (Dollars in thousands)                        FY 2006          FY2005
 Unobligated Balance

 Available                                             $421        $466
 Unavailable                                          5,352       6,415
 Obligated balance not yet disbursed                 18,769      18,769

 Totals                                             $24,542     $25,650

Note 3. Investments, Net

Investments in Treasury Securities:
The NLRB invests Backpay funds that are authorized by the Regional Compliance
Officers and other management officials in market-based Treasury securities issued by
the Federal Investment Branch of the Bureau of Public Debt.

In FY 2006, the maturity value of the investment was $2 million as compared to FY 2005
of $2 million.

There exists a signed Memorandum of Understanding (MOU) between the NLRB and the
U.S. Treasury (Treasury) establishing the policies and procedures that the NLRB and the
Treasury agree to follow for investing monies in, and redeeming investments held by, the
deposit fund account in Treasury.




                                          25
Investments as of September 30, 2006 and September 30, 2005 consist of the following:

Investment Value at Investment Market Value


                                                                                        Market
                                    Investment         Value at     Investment          Value
 (Dollars in thousands)                Type            Maturity         Net           Disclosure

 FY 2006
 U.S. Treasury Securities        Marketable                 1,683          1,668           1,668


 FY 2005
 U.S. Treasury Securities        Marketable                 1,665          1,652           1,652

For FY 2006 and 2005, the discount on the marketable securities amounted to $15 and
$13, respectively (Dollars in thousands).

Note 4. Advances

Intragovernmental
Intragovernmental Advances of $64,460 represent advances to the United States Postal
Service (USPS) for penalty mail and the Department of Transportation (DOT) for the
transit subsidy as of September 30, 2006. The USPS advance for September 30, 2006
was $12,611 and $20,848 for September 30, 2005. The DOT advance for September 30,
2006 was $51,849 and zero for September 30, 2005 (Amounts in dollars).

Commercial
Advances to Others of $29,419 as of September 30, 2006 and $14,447 for September 30,
2005, represent advances to a commercial vendor for postage (Amounts in dollars).

Note 5. Accounts Receivable, Net of Allowances for Doubtful Accounts
The FY 2006 intragovernmental accounts receivable is zero and the FY 2005 amount was
from the Federal Emergency Management Agency (FEMA) relative to NLRB’s
employees assisted FEMA with Hurricane Katrina’s destruction. Accounts receivable at
each fiscal year end consisted of the following:




                                         26
 (Dollars in thousands)                                    FY 2006       FY2005

 Intragovernmental

    Accounts receivable                                            0          37

 Total Intragovernmental                                           0          37


 With the public

    Accounts receivable                                          $56         $56
    Allowance doubtful accounts                                   (2)         (2)
 Total Accounts receivable, net - Public                          54          54
 Accounts receivable-net                                         $54         $91

Note 6. General Property, Plant and Equipment, Net

General property, plant and equipment consist of that property which is used in
operations and consumed over time. The table below summarized the cost and
accumulated depreciation for general property, plant and equipment.

Depreciation expenses for September 30, 2006 were $81,214 and $70,004 for September
30, 2005 (Amounts in dollars).


                                                      Accumulated
                                      Acquisition     Depreciation/           Net
 (Dollars in thousands) FY 2006         Cost          Amortization         Book Value

 Equipment                        $         1,761    $        1,484      $          277
 Internal Use Software            $           163    $          163      $             -



                                                      Accumulated
                                      Acquisition     Depreciation/           Net
 (Dollars in thousands) FY 2005         Cost          Amortization         Book Value

 Equipment                        $         1,529    $        1,403      $          126
 Internal Use Software            $           163    $          163      $             -




                                           27
Note 7. Intragovernmental Accounts Payable
The FY 2006 Balance Sheet is being presented to include the amount shown for
intragovernmental accounts payable for comparative financial statements (Amounts in
dollars).

Note 8. Liabilities Not Covered by Budgetary Resources
Liabilities not covered by budgetary resources represent amounts owed in excess of
available congressionally appropriated funds or other amounts. The custodial liability
represents amounts collected from the public for court costs, freedom of information
requests and other miscellaneous amounts that must be transferred to the U.S. Treasury.
The composition of liabilities not covered by budgetary resources as of September 30,
2006 and September 30, 2005, is as follows:



 Intragovernmental: (Dollars in thousands)                           FY 2006        FY 2005
    FECA-Unfunded                                                       $920           $921
 Total Intragovernmental                                                 920            921
 Estimated Future - FECA                                               2,135          1,784
 Accrued Annual Leave                                                 13,511         13,264
 Backpay Settlement Due to Others                                      2,532          3,080
 Custodial Liability                                                     254            549
 Total Liabilities not covered by budgetary resources                $19,352        $19,598
 Total Liabilities covered by budgetary resources                     11,659         12,625
        Total Liabilities                                            $31,011        $32,223

Note 9. Non-Entity Assets
Non-Entity assets, restricted by nature, consist of miscellaneous receipt accounts and
Backpay settlement due to others. These amounts represent cash collected and accounts
receivable (net of allowance for doubtful accounts). The miscellaneous receipts represent
court costs, freedom of information requests and closed out Backpay cases that must be
transferred to the U.S. Treasury. The Backpay settlement due to others represents monies
to be disbursed to discriminatees at a later date. The composition of non-entity assets as
of September 30, 2006 and September 30, 2005, is as follows:




                                           28
 (Dollars in thousands)                                    FY 2006          FY 2005
 Non-entity assets
     Intragovernmental
     Fund Balance with Treasury                                   $254         $549
     Accounts receivable                                             -            -
     Total Intragovernmental                                      $254         $549
     Backpay Settlement Due to Others                            2,532        3,080
 Total Non-entity assets                                        $2,786       $3,629
 Entity assets                                                  23,849       23,925
 Total Assets                                                 $26,635       $27,554

Note 10. Cumulative Results of Operations


 (Dollars in thousands)                                   FY 2006         FY 2005
 FECA paid by DOL                                             $(419)        $(469)
 FECA - Unfunded                                               (920)         (921)
 Estimated Future FECA                                       (2,135)       (1,784)
 Accrued Annual Leave                                       (13,511)      (13,264)
 General Property, Plant & Equipment, Net                        277           126
 Other                                                           472           523
 Cumulative Results of Operations                          $(16,236)     $(15,789)

Note 11. Intragovernmental Costs and Exchange Revenue

For the intragovernmental costs, the buyer and seller are both Federal entities. The
earned revenue is the reimbursable costs from other Federal entities. NLRB provided
administrative law judges’ services to other Federal entities. There is no exchange
revenue with the public.




                                          29
 (Amount in dollars)                                     FY 2006                FY 2005


 Resolve Representation Cases
   Intragovernmental Costs                         $      8,600,420       $     12,236,370
   Costs with the Public                                 34,570,613             26,203,813

 Total Net Cost - Resolve Representation Cases           43,171,033             38,440,183




 Resolve Unfair Labor Practices
   Intragovernmental Costs                               43,788,511             70,845,144
   Costs with the Public                                178,096,932            153,071,278

 Total Net Cost - Resolve Unfair Labor Practices        221,885,443            223,916,422

 Other
 Intragovernmental Costs                                    266,891                112,556
 Less: Intragovernmental Earned Revenue                     266,891                112,556
 Net Intragovernmental Cost                                       -                      -

 Total Net Cost - Other                                            -                       -

 Net Cost of Operations                            $    265,056,476       $    262,356,605



Note 12. Operating Leases
GSA Real Property. Most of the NLRB’s facilities are rented from the GSA, which
charges rent that is intended to approximate commercial rental rates. The terms of the
NLRB’s occupancy agreements (OA) with GSA will vary according to whether the
underlying assets are owned by GSA, or another Federal agency or rented by GSA from
+the private sector. The NLRB has OAs with GSA, which sets forth terms and
conditions for the space the Agency will occupy for an extended period of time. Included
within the OAs are 120 to 180 day notification requirements for the Agency to release
space. For purposes of disclosing future operating lease payments in the table below,
federally owned leases are included in years 2007 through 2011.

Rental expenses for operating leases as of September 30, 2006 were $27,180,435 for
Agency lease space and $1,267,062 for Agency building security. For FY 2005 the GSA
operating lease costs was $26,866,735 and the Department of Homeland Security
building security portion was $1,432,593. Also, in FY 2006, the Agency is showing
separately the payment to GSA for the operating lease and the payment to the Department
of Homeland Security for the building security.




                                          30
Personal Property. The NLRB leases personal property from GSA. The terms for GSA
leases frequently exceed one year, although a definite lease period is not always
specified. For purposes of disclosing future operating lease payments in the table below,
GSA personal property leases are included in years 2007 through 2011. The estimated
future operating lease payments for GSA and private personal property leases are based
on a 3 percent increase over the 2006 actual personal property rental expense.

Rental expenses for operating leases as of September 30, 2006 and 2005 were $125,132
and $122,014, respectively.

The aggregate of the NLRB’s estimated real and personal property future lease payment
to GSA are presented in the table below and it does not include building security. The
NLRB does not have any commitment for future lease payments after five years.

                                          GSA
 (Dollars in thousands)                   Real         Personal
 Fiscal Year                            Property       Property         Total
 2007                                     $27,685          $129          $27,814
 2008                                      29,354           133           29,487
 2009                                      33,299           137           33,436
 2010                                      34,098           141           34,239
 2011                                      34,917           145           35,062
 After 5 Years                                  -             -               -
 Total Future Lease Costs                $159,353           $685        $160,038

Note 13. Appropriations Received
The NLRB received $249,745,320 and $249,860,000 (net of rescission) in warrants for
the FYs ended September 30, 2006 and 2005, respectively. The rescissions were
$2,522,680 and $2,015,000 for FYs 2006 and 2005, respectively. The amount shown on
the Statement of Budgetary Resources under caption “Permanently not available” for FY
2006 in the amount of $3,811,629 is a combination of the FY 2006 rescission of
$2,522,680, the cancelled appropriation for FY 2001 and FY 1999/2001 Y2K in the
amounts of $1,118,695 and 170,254, respectively. The amount of $3,218,386 for FY
2005 is a combination of the rescission of $2,015,000 and FY 2000 cancelled
appropriation of $1,203,386.

Note 14. Statement of Budgetary Resources
The Statement of Budgetary Resources provides information about how budgetary
resources were made available as well as their status at the end of the period. It is the
only financial statement exclusively derived from the entity’s budgetary general ledger in
accordance with budgetary accounting rules that are incorporated into generally accepted
accounting principles for the Federal government. The total Budgetary Resources of
$255,339,361 as of September 30, 2006 and $254,946,651 as of September 30, 2005,
includes new budget authority, unobligated balances at the beginning of the year,
spending authority from offsetting collections, recoveries of prior year obligations and




                                           31
permanently not available. NLRB’s unobligated balance available at September 30,
2006, was $420,908 and at September 30, 2005 was $455,357.
Apportionment Categories of Obligations Incurred. The NLRB’s obligations incurred
as of September 30, 2006 and September 30, 2005 by apportionment Category A and B is
shown in the following table. Category A apportionments distribute budgetary resources
by fiscal quarters and Category B apportionments typically distribute budgetary resources
by activities, projects, objects or a combination of these categories.

 (Dollars in thousands)                    Apportioned                  Not Subject to
 FY 2006                             Category A    Category B           Apportionment Total
 Obligations Incurred:
 Direct                                  $239,730           $10,313                     $0 $250,043
 Reimbursable                                 267                 -                             267
 Total Obligations Incurred              $239,997            $10,313                    $0 $250,310



 (Dollars in thousands)                    Apportioned                  Not Subject to
 FY 2005                             Category A    Category B           Apportionment Total
 Obligations Incurred:
 Direct                                  $236,982           $12,958                 $(10) $249,930
 Reimbursable                                 113                 0                            113
 Total Obligations Incurred              $237,095            $12,958                 $(10) $250,043



Note 15. Imputed Financing
OPM pays pension and other future retirement benefits on behalf of Federal agencies for
Federal employees. OPM provides rates for recording the estimated cost of pension and
other future retirement benefits paid by OPM on behalf of Federal agencies. The costs of
these benefits are reflected as imputed financing in the consolidated financial statements.
Expenses of the NLRB paid or to be paid by other Federal agencies at September 30,
2006 and 2005 consisted of:



 (Dollars in thousands)                                    FY 2006              FY 2005
 Office of Personnel Management:
 Pension expenses                                                 $7,347          $7,581
 Federal employees health benefits                                 9,517           8,653
 Federal employees group life insurance
 program                                                               29              28
 Total Imputed Financing                                         $16,893        $16,262




                                            32
Note 16. Backpay Checks Held in NLRB Regional Offices
The NLRB may use Backpay as a remedy to settle an ULP. The Backpay may be
disbursed by three different methods: (1) the respondent prepares the Backpay and
disburses it directly to the discriminatee(s); (2) the respondent prepares the Backpay and
gives the check(s) to an NLRB Regional Office to deliver to the discriminatee(s); and (3)
the respondent makes the Backpay payable to the NLRB, who deposits the check and
then issues U.S. Treasury checks to the discriminatee(s).

This footnote identifies the number (in units) and dollar value (in thousands) of checks
that are received in the Regional Offices that are made payable to discriminatees. The
NLRB has a fiduciary type of responsibility to safeguard these checks until they are
successfully disbursed to the discriminatee(s). It should be noted that it might take
months to successfully deliver the Backpay.

 (Dollars in thousands)                                FY 2006                FY 2005
                                             Number           Amount    Number     Amount
 Checks on Hand, Beginning of Period             389      $       519        921   $    755
 Checks Received                               5,492          17,606       9,622    21,015
 Less Checks Distributed                     (5,528)       (17,964)     (10,154)   (21,251)
 Net Change in Checks on Hand                  (36)       $ (358)         (532)    $ (236)
 Checks on Hand at End of Period                353       $      161       389     $ 519


Note 17. Contingencies
The NLRB is a party to several threatened or pending litigation claims. NLRB
management has estimated claims are between $100 to $500 thousand that have a
reasonable possibility of loss (the chance of loss is less than probable, but more than
remote). The Agency has and will continue to vigorously contest these claims. In the
opinion of NLRB’s management, the ultimate resolution of pending litigation will not
have a material effect on the NLRB’s financial statements.

Note 18. Obligation for Severable Services
A FY 2005 obligation, totaling approximately $758 thousand (previously stated at 1.5
million) for contractural information technology and end-user support services, was
determined by Comptroller General of the United States to be improperly obligated in FY
2005 and should have been charged to FY 2006. This error was corrected in FY 2006.
Additionally, in FY 2006, obligations totaling $718 thousand for data base subscription
services are currently under review by NLRB management and the NLRB Office of
Inspector General. The ultimate outcome of this matter cannot presently be determined.
In the opinion of NLRB’s management, the ultimate resolution would not have a material
effect on the NLRB’s financial statements.




                                           33
APPENDIX A
APPENDIX B
APPENDIX B
APPENDIX B
